TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Increased Call Demand and Limited
                    Resources Continue to Adversely Affect
                    the Toll-Free Telephone Level of Service



                                         August 19, 2011

                              Reference Number: 2011-40-087




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


INCREASED CALL DEMAND AND                              During Fiscal Year 2008, the IRS implemented
LIMITED RESOURCES CONTINUE TO                          the Estimated Wait Time Message Pilot on six
ADVERSELY AFFECT THE TOLL-FREE                         toll-free telephone applications. The message
TELEPHONE LEVEL OF SERVICE                             provides a real-time message that informs
                                                       taxpayers of their expected wait time to reach an
                                                       assistor. This allows taxpayers to make more
Highlights                                             informed decisions on whether to wait for an
                                                       assistor or hang up and call at another time.
                                                       Currently, the Estimated Wait Time Message is
Final Report issued on August 19, 2011                 on 74 percent of the IRS’s assistor-staffed
                                                       applications.
Highlights of Reference Number: 2011-40-087
to the Internal Revenue Service Commissioner           TIGTA evaluated a sample of 33 calls made to
for the Wage and Investment Division.                  the toll-free 1-800-829-1040 telephone number
                                                       that individual taxpayers call to ask tax account
IMPACT ON TAXPAYERS                                    or tax law questions. The IRS provided an
Each year, millions of taxpayers contact the           Estimated Wait Time Message and an assistor
Internal Revenue Service (IRS) by calling the          answered on 30 calls. The other three calls
various toll-free telephone assistance lines to        were disconnected prior to reaching an assistor
seek help in understanding tax laws and                or an Estimated Wait Time was not given. The
meeting their tax obligations. During the              Estimated Wait Time was accurate for
2011 Filing Season, the IRS exceeded its key           24 (80 percent) of 30 calls.
toll-free telephone assistance performance             WHAT TIGTA RECOMMENDED
measurement goals. However, wait times to
speak with an assistor are still high.                 Although TIGTA made no recommendations in
                                                       this report, IRS officials were provided an
WHY TIGTA DID THE AUDIT                                opportunity to review the draft report. IRS
The objective of this audit was to evaluate the        management did not provide any comments in
customer service toll-free telephone access            response to this report.
during the 2011 Filing Season and evaluate the
toll-free estimated wait time process.
WHAT TIGTA FOUND
More taxpayers are calling the IRS's toll-free
telephone lines every year. During the
2011 Filing Season, the IRS received
approximately 80 million attempts to call the
toll-free telephone lines, up from 54 million, or
48 percent, during the 2007 Filing Season—the
last filing season with a Level of Service more
than 80 percent. Taxpayers waited on average
10 minutes to speak to an assistor, a
137 percent increase since the 2007 Filing
Season.
The IRS exceeded its key 2011 Filing Season
toll-free telephone assistance performance
goals. The IRS planned to achieve a 71 percent
Level of Service and a 680-second Average
Speed of Answer. Instead, it achieved a
74.6 percent Level of Service and a 596-second
Average Speed of Answer.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 19, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Increased Call Demand and Limited Resources
                             Continue to Adversely Affect the Toll-Free Telephone Level of Service
                             (Audit # 201140002)

 This report presents the results of our review to evaluate the Internal Revenue Service’s customer
 service toll-free telephone access during the 2011 Filing Season. In addition, we evaluated the
 toll-free estimated wait time process to determine whether the Internal Revenue Service has
 continued and expanded the use of the Estimated Wait Time Message service and whether the
 estimated wait times provided to taxpayers are accurate. This audit is included in the Treasury
 Inspector General for Tax Administration’s Fiscal Year 2011 Annual Audit Plan and addresses
 the major management challenge of Providing Quality Taxpayer Service Operations.
 Although we made no recommendations in this report, Internal Revenue Service officials were
 provided an opportunity to review the draft report. Internal Revenue Service management did
 not provide any comments in response to this report.
 Copies of this report are also being sent to the IRS managers affected by the report information.
 Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
 Inspector General for Audit (Returns Processing and Account Services), at (202) 622-5916.
                          Increased Call Demand and Limited Resources Continue to
                           Adversely Affect the Toll-Free Telephone Level of Service




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Increased Call Demand and Limited Resources Continue to
          Keep Level of Service Under 80 Percent ...................................................... Page 5
          The Estimated Wait Time Message Provides Callers With
          Accurate Wait Times .................................................................................... Page 12

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Joint Operations Center........................................................ Page 17
          Appendix V – Busiest Customer Account Services Lines............................ Page 19
                   Increased Call Demand and Limited Resources Continue to
                    Adversely Affect the Toll-Free Telephone Level of Service




                                 Abbreviations

CAS                       Customer Account Services
e-file; e-filing          Electronically file, electronic filing
IRS                       Internal Revenue Service
PIN                       Personal Identification Number
                      Increased Call Demand and Limited Resources Continue to
                       Adversely Affect the Toll-Free Telephone Level of Service




                                             Background

Each year, millions of taxpayers contact the Internal Revenue Service (IRS) by calling the
various toll-free telephone assistance lines to seek help in understanding tax laws and meeting
their tax obligations. Taxpayers called the IRS toll-free telephone assistance lines approximately
80 million1 times during the 2011 Filing Season.2 Of these calls, about 24 million were made to
the toll-free telephone number that taxpayers call to ask account or tax law questions
(1-800-829-1040). In addition, about 6 million calls were made to the IRS automated TeleTax
system that provides recorded tax law and tax refund information. Figure 1 shows the number of
calls made to the toll-free telephone assistance lines, including about 16 million calls answered
by customer service representatives (assistors).
                                 Figure 1: Calls Handled by the IRS

                                         15 Million After
                                            Hours or
                                         Transferred to
                                          Other Lines
                                              18%                     32 Million
                                                                      Received
                         18 Million Hung Up                       Automated Service
                              or Were                                    40%
                           Disconnected
                          Before Receiving
                               Service
                                 22%
                                                 16 Million Reached
                                                     an Assistor
                                                         20%




                  Source: IRS Enterprise Telephone Data Warehouse. Numbers are rounded.


1
  These calls were made to a suite of 26 telephone lines the IRS refers to as “Customer Account Services (CAS)
Toll-Free” and include calls made to the TeleTax system. Unless otherwise specified, all references made in this
report to the toll-free telephone system performance data are for CAS Toll-Free telephone assistance lines from
January 1 through April 23, 2011, and comparable dates in prior years.
2
  The filing season is the period from January through mid-April of each year when most individual tax returns are
filed. All references to the 2011 Filing Season made in this report, unless otherwise specified, are for the period
from January 1 through April 23, 2011.
                                                                                                             Page 1
                       Increased Call Demand and Limited Resources Continue to
                        Adversely Affect the Toll-Free Telephone Level of Service



The toll-free telephone assistance lines are further subdivided into categories called
“applications,” each of which is staffed with a group of assistors who have received specialized
training to assist taxpayers with specific tax issues. Assistors answer taxpayer questions
involving tax law and tax account conditions such as refunds, balance-due billing activity, and
changes to the amount of tax owed. For example, if an individual taxpayer calls to find out
where to mail a tax return, the call would be routed to an assistor who has been trained to handle
IRS procedural issues for individual taxpayers. If a business taxpayer calls to find out the taxes
due on a business account, the call would be routed to an assistor who handles balance-due
questions for business taxpayers. Figure 2 shows the number of calls answered on the
26 Customer Account Services (CAS) lines, by product line, during the 2011 Filing Season.
            Figure 2: Toll-Free Telephone Service Product Lines and
         Number of Assistors Calls Answered During the 2011 Filing Season

                                                                            Business Master File
                                  Small Business/                           Customer Response,
                                  Self- Employed          Refund Hotline,      669,485 4%
                               Individual Master File      737,584 5%
          Business and         Customer Response,
      Specialty Tax Services      1,125,056 7%
       Line, 1,262,456 8%                                                          Practitioner Priority
                                                                                        Services,
   Wage and Investment                                                                429,133 3%
   Individual Master File
   Customer Response,
      1,840,340 11%                                                                        Remaining 18 Toll-
                                                                                           Free Product Lines,
                                                                                             1,331,436 8%




      Refund Call Back,
                                                                                      Individual Income
       2,897,407 18%
                                                                                        Tax Services,
                                                                                       5,793,720 36%



       Source: IRS Enterprise Telephone Data Warehouse.

During the 2011 Filing Season, the IRS made available approximately 12,600 assistors to answer
the toll-free telephone lines at 25 call centers located throughout the United States and
Puerto Rico. The Director, Customer Account Services, Wage and Investment Division,
manages tax law and account telephone calls through the Joint Operations Center. Appendix IV

                                                                                                           Page 2
                      Increased Call Demand and Limited Resources Continue to
                       Adversely Affect the Toll-Free Telephone Level of Service



explains the role of the Joint Operations Center and how telephone calls are routed to automated
services or an assistor.
In recent years, the passing of tax legislation (the Economic Stimulus Act of 20083 and the
American Recovery and Reinvestment Act of 20094) has placed an enormous burden on the IRS.
In addition, late legislation in Fiscal Year 2011 required the IRS to quickly respond to increase
call demand and last minute changes to tax systems, forms, and regulations for both internal and
public users.
    •   On September 27, 2010, the Small Business Jobs Act of 20105 was passed that provided
        tax relief to small business owners affecting their Tax Year 2010 and 2011 returns.
    •   On December 17, 2010, Congress passed the Tax Relief, Unemployment Insurance
        Reauthorization, and Job Creation Act of 2010 (Tax Relief Act of 2010),6 which extended
        the Tax Year7 2001, 2003, and 2009 temporary tax relief provisions, and other temporary
        tax extensions for individual and small business taxpayers.
As a result, certain taxpayers affected by the tax extension credits and deductions had to wait
until February 14, 2011, to file their tax returns in order for the IRS to update the tax forms and
reprogram its processing systems.
The IRS provides Estimated Wait Time Messages while taxpayers wait to speak to an
assistor
During Fiscal Year 2008, the IRS implemented the Estimated Wait Time Message Pilot on
six toll-free telephone applications. The message provides a real-time message that informs
taxpayers about their expected wait time to hold until the call is answered by an assistor,
allowing them to make more informed decisions on whether to wait for an assistor or hang up
and call at another time. The IRS maintains that providing this information has a positive effect
on telecom costs and reduces the overall duration of time callers spend waiting before they make
a decision whether to wait or hang up. The IRS viewed the pilot as a success and continued the
Estimated Wait Time Message on the same six applications with expansion to additional
applications in July 2009. Currently, the Estimated Wait Time Message is on 74 percent of the
IRS’s assistor-staffed applications.
This review was performed at the Wage and Investment Division Headquarters and Joint
Operations Center in Atlanta, Georgia, during the period January through May 2011. We
conducted this performance audit in accordance with generally accepted government auditing

3
  Pub. L. No. 110-185, 122 Stat. 613.
4
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
5
  Pub. L. No. 111-240, 124 Stat. 2504.
6
  Pub. L. No. 111-312, 124 Stat. 3296.
7
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
                                                                                                          Page 3
                        Increased Call Demand and Limited Resources Continue to
                         Adversely Affect the Toll-Free Telephone Level of Service



standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. The scope of this audit did not include
an evaluation of the quality of toll-free telephone services. The performance data presented were
provided by IRS management information systems. We reviewed IRS documentation,
interviewed IRS officials about computer systems and data limitations, and compared those
results to the Government Accountability Office standards of data reliability.8 Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




8
    Assessing the Reliability of Computer-Processed Data (GAO-09-680G, dated July 2009).
                                                                                           Page 4
                    Increased Call Demand and Limited Resources Continue to
                     Adversely Affect the Toll-Free Telephone Level of Service




                                     Results of Review

Increased Call Demand and Limited Resources Continue to Keep
Level of Service Under 80 Percent
More taxpayers are calling the IRS’s toll-free lines every year. During the 2011 Filing Season,
the IRS received 80 million attempts to call the toll-free telephone lines, up from 54 million, or
an increase of 48 percent, during the 2007 Filing Season—the last filing season with a Customer
Service Representative Level of Service more than 80 percent. Taxpayers waited on average
10 minutes to speak to an assistor (referred to as the Average Speed of Answer), a 137 percent
increase since the 2007 Filing Season. Figure 3 shows how the calls have increased and the
performance measures have changed since the 2007 Filing Season.
         Figure 3: Comparison of Call Attempts and Performance Measures
                        for the 2007 - 2011 Filing Seasons

                                        Total Attempts by Filing Season              Percentage
                                                  (in Millions)                        Change
                                                                                        From
Product Line                   2007         2008      2009        2010     2011      2007 to 2011

All CAS Lines                   54           64        79          74        80          48%

1040 Line                       19           23        30          27        24          26%

                                                                                     Percentage
                                                                                       Change
                                                                                        From
 Performance Measure           2007         2008      2009        2010     2011      2007 to 2011

Level of Service              82.4%        77.5%      64.5%      75.5%     74.6%        -9.5%

Average Speed of
                               252           351       516        576       596         137%
Answer (seconds)
Assistor Calls Answered
                               15.5         17.1       18.6       16.2      16.1         4%
(millions)
Source: IRS Enterprise Telephone Data Warehouse.

The IRS met its 2011 Filing Season goals to achieve a 71 percent Level of Service and
680 second (11.3 minutes) Average Speed of Answer.

                                                                                            Page 5
                         Increased Call Demand and Limited Resources Continue to
                          Adversely Affect the Toll-Free Telephone Level of Service



Except for the 2010 Filing Season, the IRS has experienced a continuous increase in the volume
of calls since the 2007 Filing Season. Previously, the IRS has received additional funding to
help with the call demand created by legislation such as the Economic Stimulus Act of 2008.
However, although call demand remains high, the IRS is no longer receiving these additional
funds.
The IRS requested a Fiscal Year 2011 budget program increase of $11.9 million and a $9 million
reallocation from other IRS programs to increase its telephone Level of Service goal to
75 percent. However, the IRS did not receive the additional funding to increase its telephone
Level of Service to 75 percent for the 2011 Fiscal Year. The program increase and reallocation
did not materialize because the Federal Government operated under a continuing resolution for
most of Fiscal Year 2011. The IRS was still able to achieve a 74.6 percent Level of Service for
the 2011 Filing Season, even though the request for the additional funding was for the Fiscal
Year 2011, which ends September 30, 2011. As of May 28, 2011, the Level of Service for Fiscal
Year 2011 was 74.0 percent.
The IRS attributes the increase in the number of calls to taxpayers inquiring about their
individual tax accounts. Fewer taxpayers are calling the 1040 Line during the filing season, but
significantly more are calling about their tax refunds. Figure 4 provides the number of call
attempts during the 2007 and 2011 Filing Seasons for the 8 lines that make up 70 percent of the
call attempts on the 26 CAS lines.
                         Figure 4: Call Attempts on the Busiest CAS Lines
                              From the 2007 to 2011 Filing Seasons9

                                                  2007              2011
                                                Attempts          Attempts                    Percentage
            Product Line                      (in Millions)     (in Millions)    Difference    Change
            Individual Income Tax
                                               19,453,559       23,773,873        4,320,314        22%
            Services (1040)
            Business and Specialty
                                                2,192,827        1,721,902         -470,925        -21%
            Tax Services
            Business Master File
                                                1,017,597        1,094,082           76,485         8%
            Customer Response
            Wage and Investment
            Individual Master File              3,458,794        4,278,534          819,740        24%
            Customer Response
            Practitioner Priority
                                                  562,357          857,457          295,100        52%
            Services



9
    See Appendix V for a description of each of the toll-free telephone lines.
                                                                                                           Page 6
                   Increased Call Demand and Limited Resources Continue to
                    Adversely Affect the Toll-Free Telephone Level of Service




                                          2007            2011
                                        Attempts        Attempts                    Percentage
        Product Line                  (in Millions)   (in Millions)   Difference     Change
        Small Business/
        Self-Employed Individual
                                        1,883,606         2,437,947      554,341         29%
        Master File Customer
        Response

        Refund Hotline                15,147,505      12,315,374       -2,832,131        -19%

        Refund Call Back               2,295,300          5,691,599    3,396,299        148%

        TOTALS                        46,011,545      52,170,768       6,159,223         13%
       Source: IRS Enterprise Telephone Data Warehouse.

The Refund Call Back and the Practitioner Priority Service lines had the greatest increase in call
demand.
The increase in call demand since the 2007 Filing Season continues to keep the Level of Service
below 80 percent and the Average Speed of Answer high. The Average Speed of Answer has
increased over the years from more than 4 minutes during the 2007 Filing Season to
approximately 10 minutes during the 2011 Filing Season.
Both the IRS Oversight Board and the National Taxpayer Advocate have expressed concern over
the decreasing Level of Service. The National Taxpayer Advocate’s 2010 Annual Report to
Congress stated that the IRS does not receive sufficient funding for toll-free telephone access and
it can only do so much when having to adjust its resources between paper inventories and
telephones. The IRS Oversight Board stated in its 2010 Annual Report to Congress that:
       The level of service on IRS toll-free telephones during Fiscal Year 2010 was 74 percent,
       an improvement over the 70 percent achieved in Fiscal Year 2009, and higher than its
       goal of 71 percent based on resources appropriated. However, this Level of Service was
       still below the 80 percent level the Board considers acceptable for good taxpayer service.
       . . . In recent years, the tax administration system has been used to deliver quickly and
       efficiently a variety of financial benefits to taxpayers during a period of economic
       turmoil. The IRS has responded well to these challenges, but the result has been to
       stretch the IRS’ resources thin. Every new tax provision added to the internal revenue
       code requires both service and enforcement resources for successful implementation.

The IRS did not block more calls, but there was a slight increase in the number of
taxpayers who abandoned calls (disconnected) in the 2011 Filing Season
The number of blocked calls remained approximately the same as the 2010 Filing Season—at
about 1 million. Compared to the 2010 Filing Season, primary abandons increased more than

                                                                                                 Page 7
                      Increased Call Demand and Limited Resources Continue to
                       Adversely Affect the Toll-Free Telephone Level of Service



7 percent, but secondary abandons generally remained the same at 4.7 million.10 However,
primary abandons remain 60 percent higher and secondary abandons were 79 percent11 higher
than the 2007 Filing Season, the last time the IRS provided a Level of Service of more than
80 percent. Figure 5 shows a comparison of various components (workload indicators) the IRS
uses to manage the Level of Service.
                        Figure 5: Comparison of Toll-Free Telephone
                       Performance Measures and Workload Indicators
                             for the 2007–2011 Filing Seasons12

                                                                          Filing Season
              Components                                      2007     2008    2009    2010     2011

              Average Speed of Answer (seconds)                252     351      516     576     596

              Blocked Calls (millions)

                 Busy Signals                                  0.4      0.4     0.5      0.6     0.3

                 Courtesy Disconnects                          0.4      0.8     4.5      0.4     0.6

              Total Blocked Calls                              0.9      1.2     5.0      1.0     1.0

              Primary Abandons (millions)                      7.0      8.3    11.2    10.5     11.3

              Secondary Abandons (millions)                    2.6      4.0     5.5      4.6     4.7

              TeleTax Abandons (millions)13                    1.2      1.0     1.4      0.9     0.9

              Total Calls Not Answered (Hung Up or
              Disconnected)                                   11.6     14.6    23.2    16.9     17.9
             Source: IRS Enterprise Telephone Data Warehouse.



10
   A primary abandon may occur, for example, when a taxpayer 1) realizes he or she input the wrong telephone
number and immediately disconnects, 2) disconnects before completing an automated routing script, or 3) chooses a
menu option to use an automated service but disconnects before completing the service. A secondary abandon
occurs when a caller gains access into the queue and then hangs up while waiting in the queue for the next available
assistor.
11
   Percentage may vary slightly due to rounding.
12
   Due to rounding, the numbers may not always equal the sum of the totals.
13
   Taxpayers may call 1-800-829-4477 to hear prerecorded messages covering various tax topics or to check on the
status of their refund. TeleTax topics, which range from “IRS services” to “When, where and how to file,” are listed
on pages 90 and 91 of the U.S. Individual Income Tax Return (Form 1040) Instruction booklet for Tax Year 2010,
available at IRS.gov. TeleTax abandons also include TeleTax overflows. An overflow call is when a caller cannot
get into the system because of high call volume.
                                                                                                            Page 8
                      Increased Call Demand and Limited Resources Continue to
                       Adversely Affect the Toll-Free Telephone Level of Service



If the caller decides to hang up and call back at a later time, this is counted as a secondary
abandon call, which reduces the Level of Service. IRS officials stated the increase in abandoned
calls can be attributed in part to taxpayers reacting to informational messages in the menu scripts
while they wait to speak to an assistor. For example, when informational messages advise
taxpayers that information is available elsewhere, such as on the IRS public Internet site,
IRS.gov, taxpayers may disconnect and decide to use the Internet instead. The Estimated Wait
Time Message may also result in abandoned calls because taxpayers can choose whether they
want to wait to speak to an assistor or disconnect and call back. The IRS continues to review its
Level of Service metric to ensure it accurately reflects the customer service being provided to
taxpayers, including whether these secondary abandon calls should be removed from the Level
of Service calculation.

The IRS determines the number of calls it can answer and the Level of Service it
can provide by first determining its available resources
The IRS’s planning for toll-free access takes into account that not all calls it receives on its
CAS telephone lines can be answered during the filing season, even without the recent increased
call demand. Instead, it plans on how many calls it can answer based on its annual budget. The
IRS stated that the Level of Service measures the level it plans to answer (i.e., the anticipated
“call demand” for assistors in a given time period). The success rate is determined by measuring
the number of taxpayers who gain access to the system and are placed in the IRS queue.
The IRS develops strategic plans based on historic data and trends, and determines how many
calls can be answered by the number of Full-Time Equivalents14 allocated for the filing season
and fiscal year. The Level of Service is an average set for a time period, and as a part of the
IRS’s strategic plan to monitor the Level of Service, the IRS sets daily, weekly, filing season,
and fiscal year goals. During certain weeks of the filing season, the Level of Service may
experience low dips because of call demand. Figure 6 shows the weekly call volumes and their
impact on the Level of Service for the weeks throughout the 2011 Filing Season.




14
  A measure of labor hours in which 1 Full-Time Equivalent is equal to 8 hours multiplied by the number of
compensable days in a particular fiscal year.
                                                                                                             Page 9
                             Increased Call Demand and Limited Resources Continue to
                              Adversely Affect the Toll-Free Telephone Level of Service



                             Figure 6: Weekly Level of Service and Call Volume
                                        for the 2011 Filing Season

                 2,000,000                                                                                90%

                 1,800,000                                                                                80%

                 1,600,000                                                                                70%

                 1,400,000                                                                                60%




                                                                                                                 Level of Service
  Weekly Calls




                 1,200,000                                                                                50%

                 1,000,000                                                                                40%

                  800,000                                                                                 30%

                  600,000                                                                                 20%

                  400,000                                                                                 10%

                  200,000                                                                                 0%




                                   Assistor Calls Answered
                                   Total Blocked Calls (Courtesy Disconnects and Customer Busy Signals)
                                   Abandons  (Secondary)
                                   Level of Service

Source: IRS Enterprise Telephone Data Warehouse.

The IRS has a limited number of resources and must allocate those resources between answering
toll-free telephone lines and working correspondence and adjustments to taxpayer accounts.
Assistors who answer the toll-free telephone lines also handle paper correspondence (including
processing amended returns). During the filing season when call demand is usually at its
highest, more resources are shifted to the telephones to answer calls, and correspondence and
adjustment inventory processing is placed on hold until call demand subsides.
As call volumes have increased and assistors have been moved to answer telephone calls, paper
correspondence inventories have substantially increased. The correspondence inventory rose
from approximately 480,000 at the end of Fiscal Year 2007 to more than 628,000 at the end of
Fiscal Year 2010—an increase of nearly 31 percent.

The IRS continues to look for ways to improve customer service by leveraging its
available resources
Each year, the IRS continues to identify toll-free telephone services that can be diverted to
automated self-service and web applications in an effort to ease the ever increasing call demand
on its limited number of assistors. During Fiscal Year 2010, the IRS developed the Leveraging
Resources and Optimizing Services Project to address toll-free resource challenges with a focus
in the following four key areas:
                                                                                                               Page 10
                       Increased Call Demand and Limited Resources Continue to
                        Adversely Affect the Toll-Free Telephone Level of Service



     •   Narrow the gap between assistor staffing supply and total workload.
     •   Improve taxpayer experience through targeted and cost-effective initiatives.
     •   Deliver quick successful improvements in Fiscal Year 2010 and longer-term change in
         Fiscal Year 2011.
     •   Remain budget neutral.
Assistors are shifting from generalists to specialists
The Accounts Management function identified correspondence and telephone processes that
could be re-designed to shift the assistors from a “generalist” full-scope process to a more
“specialized” work process approach. This new approach incorporated new training
methodology that focuses on issue-based segments and shorter training time in customer
accounts such as Refunds, Balance Dues, and Injured Spouse inquires. Training was enhanced
to focus on e-learning, which can be delivered at assistors’ workstations, thereby reducing the
number of training hours and the need for classroom resources.
Some of the correspondence training has been designed to correspond with and complement the
telephone segmentation, thus reinforcing the targeted training by issue. In addition, in
January 2011, the IRS implemented two new Automated Self-Service Applications that allow
toll-free screeners to transfer callers directly to the automated lines to order a tax return transcript
or find out about their tax refunds.15 Prior to this year, these calls were answered by assistors.
During the 2011 Filing Season, 28,308 calls were transferred to the Transcript Automated
Self-Service Application, and 51,662 calls were transferred to the Refund Automated
Self-Service Application.
The IRS is continuing its expansion of web-based self assistance tools
On January 3, 2011, the IRS developed and deployed a new interactive web application so
taxpayers can order account transcripts online through IRS.gov. Previously, this service was
available only through the telephone. During the 2011 Filing Season, this application received
396,273 attempts with 272,336 (69 percent) successful completions.
During the 2010 Filing Season, the IRS developed and deployed the Electronic Filing (e-file)
Personal Identification Number (PIN) Telephone and Web Applications. In Fiscal Year 2009,
the IRS discontinued the use of U.S. Individual Income Tax Declaration for an IRS e-file Online
Return (Form 8453-OL) for Tax Year 2008. Now, taxpayers choosing to electronically prepare
and file their tax returns are required to provide their prior year Adjusted Gross Income and use a
self-selected, five-digit PIN as their signature. In order to reduce calls to assistors requesting a



15
  A toll-free telephone screener’s (also known as a default screener) assignment is to properly direct the caller to the
designated area related to the caller’s inquiry.
                                                                                                              Page 11
                  Increased Call Demand and Limited Resources Continue to
                   Adversely Affect the Toll-Free Telephone Level of Service



prior year’s Adjusted Gross Income or prior year PIN, the IRS developed two methods for
taxpayers to obtain a PIN to e-file their tax returns.
   •   An Automated Interactive Telephone PIN Application (1-866-704-7388). Using the
       telephone keypad, taxpayers enter their Social Security Number, date of birth, and prior
       tax year filing status. Taxpayers receive a PIN for e-filing their tax returns. During the
       2011 Filing Season, this application received 11,418,331 attempts with 400,675 Assistor
       Calls Answered and 6,798,892 Automated Calls Answered.
   •   A Self-Select PIN Application. Using a web-based application on IRS.gov, taxpayers
       enter their name, address, date of birth, Social Security Number, and prior tax year filing
       status. A PIN generates for taxpayers to e-file their tax returns. During the 2011 Filing
       Season, this application received 13.9 million attempts with 9.6 million (69 percent)
       successful PIN requests.

The Estimated Wait Time Message Provides Callers With Accurate
Wait Times
Testing showed that the Estimated Wait Time Message is generally accurate. From a test of
33 calls made to the toll-free 1-800-829-1040 telephone number that individual taxpayers call to
ask tax account or tax law questions, the IRS provided an Estimated Wait Time Message and an
assistor answered on 30 calls. The other three calls were disconnected prior to reaching an
assistor or an Estimated Wait Time was not given. The Estimated Wait Time was accurate for
24 (80 percent) of 30 calls.
For 4 (17 percent) of 24 calls in which the wait time ranged from 33 to 53 minutes, the Estimated
Wait Time Message stated that the wait time would be greater than 15 minutes. According to
IRS criteria, the Estimated Wait Time was accurate. However, an Estimated Wait Time Message
of greater than 30 minutes would have been more accurate. The following Estimated Wait Time
messages are available:
   •   Less than 2 minutes.
   •   2 to 4 minutes.
   •   4 to 7 minutes.
   •   7 to 10 minutes.
   •   10 to 15 minutes.
   •   Greater than 15 minutes.
   •   Greater than 30 minutes.


                                                                                           Page 12
                   Increased Call Demand and Limited Resources Continue to
                    Adversely Affect the Toll-Free Telephone Level of Service



An analysis of Estimated Wait Time reports showed that of the 70 Estimated Wait Time
applications, 24 applications had a 70 percent or better accuracy rate. These applications had the
majority of the call volume at 16.1 million calls (94 percent). The other 46 applications with less
than a 70 percent accuracy rate had only about 1 million calls with most of them having an
Average Daily Volume of 800 calls or less.
During the 2011 Filing Season, of the 17.1 million calls that received an Estimated Wait Time
Message, 14.2 million (83 percent) received an accurate message. The Estimated Wait Time
Message is currently on 70 CAS toll-free telephone assistor applications.
According to the IRS, there are certain applications that would not be conducive to the Estimated
Wait Time Message because certain conditions need to be present in order for the Estimated
Wait Time calculation to estimate an accurate message. The Estimated Wait Time calculation is
a two-part calculation.
   •   The first part of the equation is based on the service interval or how often a call leaves the
       queue.
   •   The second part of the equation is queue depth or how many calls are in the queue.
For example, if the queue depth is 20 calls, then there are 20 callers in front of an inbound caller.
With a service interval of 10 seconds, the caller should receive an Estimated Wait Time Message
of 210 seconds or about 4 minutes.
The calculation is relatively stable when there is a sufficient call volume in the queue depth to
estimate the service interval. The more call volume in an application, the more accurate the
Estimated Wait Time Message. When the daily call volume drops below 900 calls, the accuracy
rate of the Estimated Wait Time Message also drops. The calculation has to have a substantial
call volume in order to provide an accuracy rate of 70 percent or better.
In addition, the Estimated Wait Time Message is not used on applications with Prioritized
Transfers. Prioritized Transfers occur when a caller has already spoken with an assistor but
needs to be transferred to another assistor for further assistance. This caller is given priority and
is placed ahead of other callers in the application queue. The callers who are already in the
queue have heard an Estimated Wait Time Message based on the queue depth and service
interval. When a call is Prioritized Transferred into the queue, it is placed in front of the other
callers, thereby adding time onto their wait and causing an inaccurate Estimated Wait Time.
We are making no recommendations in this report.




                                                                                             Page 13
                      Increased Call Demand and Limited Resources Continue to
                       Adversely Affect the Toll-Free Telephone Level of Service



                                                                                                 Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objective of this review was to evaluate the customer service toll-free telephone
access during the 2011 Filing Season.1 In addition, we evaluated the toll-free estimated wait
time process to determine whether the IRS has continued and expanded the use of the Estimated
Wait Time Message service and whether the estimated wait times provided to taxpayers are
accurate. To accomplish our objectives, we:
I.      Evaluated the IRS’s preparation for the toll-free telephone operations for the 2011 Filing
        Season, including follow up to recommendations made in a prior Treasury Inspector
        General for Tax Administration review.2
II.     Determined whether the IRS implemented any new operational processes to improve
        taxpayer access to the toll-free telephone system for the 2011 Filing Season.
III.    Determined the process used to monitor call volumes and applications that could affect
        Level of Service.
IV.     Determined whether the 2011 Filing Season performance measures, goals, and indicator
        targets for the toll-free telephone operations were achieved.
V.      Evaluated the results of the Estimated Wait Time Message Pilot and determined whether
        the IRS has successfully implemented the Estimated Wait Time Message to all
        applications and telephone lines.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: Account Management function policies,
procedures, and practices for the toll-free telephone operations. We evaluated controls by
interviewing management and reviewing policies, reports, and procedures.




1
 The filing season is the period from January through mid-April when most individual income tax returns are filed.
2
 Toll-Free Telephone Access Exceeded Expectations, but Access for Hearing-and Speech-Impaired Taxpayers
Could Be Improved (Reference Number 2010-40-108, dated September 8, 2010).
                                                                                                          Page 14
                 Increased Call Demand and Limited Resources Continue to
                  Adversely Affect the Toll-Free Telephone Level of Service



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
M. Jean Bell, Acting Audit Manager
Jackie Forbus, Lead Auditor
Patricia A. Jackson, Senior Auditor
Geraldine Vaughn, Senior Auditor




                                                                                    Page 15
                 Increased Call Demand and Limited Resources Continue to
                  Adversely Affect the Toll-Free Telephone Level of Service



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief, Performance Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PEI




                                                                                  Page 16
                      Increased Call Demand and Limited Resources Continue to
                       Adversely Affect the Toll-Free Telephone Level of Service



                                                                                                Appendix IV

                                Joint Operations Center

The Joint Operations Center serves as the central control organization for all of the IRS’s
toll-free telephone call routing. It uses intelligent call management software to control and route
calls to call centers and assistors who have the skills and are available to answer the calls. In
addition, it monitors the call centers for abnormally high queue (wait) times and/or the number of
assistors who are idle or available to answer calls. When this occurs, actions are taken to modify
routing scripts and to balance workload and associated staffing.
The Joint Operations Center has the ability to trace one call from the time it is received to the
time the call is terminated but does not do so because of the large volume of calls received. The
IRS does, however, monitor key segments in the life of a call. For example, the IRS monitors
the call from the time it was answered by a screener to when it was transferred to an assistor or
from the time it was answered by an assistor to the time the taxpayer was transferred, or the call
ended. The IRS believes that this provides indications of the type(s) of service the average
taxpayer receives.
Taxpayers who call the IRS can receive automated services or choose to speak to a customer
service representative (assistor). For taxpayers using a touchtone telephone, the automated
services Telephone Routing Interactive System uses recorded information and interactive
applications that provide automated tax refund status information, permit taxpayers to obtain a
payoff amount for an outstanding balance due, or enable taxpayers to set up an installment
agreement to settle a delinquent tax debt. For example, when a taxpayer calls 1-800-829-1040
with a tax law or account question, he or she is provided, in English or Spanish, four touchtone
automated main menu options with secondary options.
1. Requesting information on the new tax legislation. This option transfers the caller to the
   American Recovery and Reinvestment Act of 20091 information line at 1-866-234-2942 and
   then to a second automated menu that provides information regarding provisions that affect
   2010 Federal taxes.2 The caller can choose from the following options: a) the caller is
   inquiring about the Making Work Pay tax credit; or for information on Economic Recovery
   Payments for Social Security Administration, Veteran’s Affairs, or Railroad Retirement
   recipients; or the credit for certain State or Federal pension recipients; b) information about
   changes to the Earned Income Tax Credit; c) information on the First-Time Homebuyer

1
 Pub. L. No. 111-5, 123 Stat. 115 (2009).
2
 For the 2010 Filing Season, the 1-866-234-2942 line was revised to provide information about the American
Recovery and Reinvestment Act of 2009 tax law legislation that affects 2009 tax returns. The filing season is the
period from January through mid-April when most individual income tax returns are filed.
                                                                                                          Page 17
                       Increased Call Demand and Limited Resources Continue to
                        Adversely Affect the Toll-Free Telephone Level of Service



    Credit; d) information about the Higher Education Tax Credit (also known as the American
    Opportunity Tax Credit which modifies the former Hope Credit); e) Residential Credits; or
    f) an option if the caller has not heard their topic.
2. Requesting information on a tax refund. An automated message advises to please visit
   IRS.gov for the latest information on the refund status. The caller is then advised that to
   protect their privacy, they will need to provide their name, Social Security Number, and date
   of birth, as well as the filing status and address from their tax return. The caller is then asked
   to please hold.
3. General Tax Law Questions Menu. This option provides the taxpayer with an automated
   menu from which to choose the following options: a) information on obtaining a prior year
   Adjusted Gross Income or e-file PIN; b) questions about tax rules or filling out forms;
   c) questions about a form already submitted, tax history, or payment; or d) options to repeat
   this menu or return to the previous menu.
4. Preparing or filing individual income tax returns or tax-related rules and regulations. This
   option from the General Tax Law Menu provides the taxpayer with an automated menu from
   which to choose the following options: a) to order a blank form or publication; b) to get the
   mailing address for tax returns or payments; c) if you did not receive a Wage and Tax
   Statement (Form W-2) or a Form 1099 series3 information return; d) for general tax questions
   including filing a return or tax rules and regulations; or e) options to repeat this menu or
   return to the previous menu.
5. Using the Business and Specialty Tax line or obtaining the address for the IRS Internet web
   site.
6. Repeating the above options.
If the caller does not select an option or is calling from a rotary telephone and is unable to select
a touchtone option, the same script is repeated providing voice response options. If the caller
selects an invalid option, he or she is transferred to an IRS employee (screener) who screens and
transfers the call to the appropriate assistor to answer the caller’s question. Assistors are trained
and certified on specific applications for each current filing season.4




3
  The 1099 series of information returns includes forms such as Interest Income (Form 1099-INT), Dividends and
Distributions (Form 1099-DIV), and Miscellaneous Income (Form 1099-MISC).
4
  The toll-free telephone assistance lines are subdivided into categories called applications, each of which is staffed
with a group of assistors who have received specialized training to help taxpayers with specific tax issues.
                                                                                                               Page 18
                        Increased Call Demand and Limited Resources Continue to
                         Adversely Affect the Toll-Free Telephone Level of Service



                                                                                          Appendix V

           Busiest Customer Account Services Lines

          Telephone Line                                            Service

Individual Income Tax Services       For individuals who need procedural or tax law information and/or
(1040)                               help to file their U.S. Individual Income Tax (Form1040)-type
                                     individual returns, and general account information for Form 1040
                                     filers.

Business and Specialty Tax           For businesses, corporations, partnerships, and trusts that need
Services                             information and/or help regarding their business returns or
                                     business accounts.

Business Master File Customer        For business taxpayers who receive a specific notice to call the
Response                             number listed in the notice. The number is not publicly marketed.

Wage and Investment Individual       For individual taxpayers who receive a specific notice to call the
Master File Customer Response        number listed in the notice. The number is not publicly marketed.

Practitioner Priority Services       For practitioners as the first point of contact for assistance
                                     regarding their clients’ account-related issues.

Small Business/Self-Employed         For taxpayers who receive a specific notice to call the number
Individual Master File Customer      listed in the notice. The number is not publicly marketed.
Response

Refund Hotline                       For individuals to check the status of their refund. Callers will
                                     need to know their filing status and the exact whole-dollar amount
                                     of expected refund.

Refund Call Back                     For taxpayers who receive a specific notice to call the number
                                     listed on the notice. The number is not publicly marketed.

Source: IRS Intranet.




                                                                                                      Page 19
